                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL




                             REPORT ON

                 THE AUDIT OF THE REPLACEMENT HIGH

                       LEVEL WASTE EVAPORATOR

                     AT THE SAVANNAH RIVER SITE




The Office of Audit Services wants to make the distribution of
its audit reports as customer friendly and cost effective as
possible. Therefore, this report will be available electroni-
cally through the Internet five to seven days after publication
at the following alternative addresses:

             Department of Energy Headquarters Gopher
                         gopher.hr.doc.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

   U.S. Department of Energy Human Resources and Administration
                             Home Page
                http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.




Report Number:   ER-B-95-04         Eastern Regional Audit Office
Date of Issue:   June 26, 1995      Oak Ridge, TN 37830



                              REPORT ON
                 THE AUDIT OF THE REPLACEMENT HIGH
                       LEVEL WASTE EVAPORATOR
                     AT THE SAVANNAH RIVER SITE
                           TABLE OF CONTENTS

                                                           Page

             EXECUTIVE SUMMARY .............................   1

PART I   D   INTRODUCTION ..................................   4

             Background ....................................   4

             Objective .....................................   5

             Scope and Methodology .........................   5

PART II D    FINDING AND RECOMMENDATIONS ...................   7

             Schedule Delays and Cost Increases on the
             Replacement High Level Waste Evaporator .......   7

             Recommendations ...............................   7

PART III D MANAGEMENT AND AUDITOR COMMENTS ............... 14

Appendix A - Chronology of Key Events

Appendix B - Glossary of Terms

                                  #=1
                       U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL
                        OFFICE OF AUDIT SERVICES


     REPORT ON THE AUDIT OF THE REPLACEMENT HIGH LEVEL WASTE
               EVAPORATOR AT THE SAVANNAH RIVER SITE


Audit Report Number:     ER-B-95-04                  June 26, 1995

                            EXECUTIVE SUMMARY

BACKGROUND

     The Savannah River Site (Site), owned by the Department of
Energy (Department) and managed by Westinghouse Savannah
River Company (Westinghouse), recently changed its primary
mission from producing nuclear materials to environmental
restoration and waste management. A major focus in the
Site's mission is the storage, treatment, stabilization, and
disposal of high level radioactive waste materials. To
accomplish this mission, the Site will integrate its high
level waste treatment facilities into a High Level Waste
System (System), which will process the radioactive waste
material in six distinct batches.

An integral part of the System is the Replacement High Level
Waste Evaporator (Replacement Evaporator) which will
evaporate water added to the high level waste during
processing, thereby minimizing the volume of the waste
stream. Currently, the System has the evaporator and tank
farm capacity to accommodate the processing of the first
batch of radioactive waste, which is scheduled to begin in
March 1996. However, the system will need the Replacement
Evaporator to accommodate the volume of water and solvent
added during processing of the second batch of radioactive
waste scheduled to begin processing in 2004.

OBJECTIVE

     The objective of the audit was to determine whether the
schedule delays and cost increases associated with the
Replacement Evaporator were avoidable.




FINDING

     Although the Department has taken some steps to more
effectively manage its projects, the Replacement Evaporator
has incurred significant schedule delays and cost increases.
These schedule delays and cost increases have extended the
project's scheduled completion date from December 1993 to
May 2001. Also, the project's total estimated cost has
escalated from $44 million to $118 million. While some
delays and cost increases were outside management's control,
other delays and cost increases could have been avoided had
the Department adequately planned, contracted, funded and
maintained management continuity on the Replacement
Evaporator. If delays and cost increases continue, the
Site's System will not be able to operate as designed, which
will impair Savannah River Operations Office's ability to
accomplish its primary mission.

     The finding related to the management of the Replacement
Evaporator describes a material internal control weakness
that should be considered by Department program managers
when preparing their year-end assurance memorandum on
internal controls.


RECOMMENDATIONS

     We recommend that the Manager, Savannah River Operations
Office:

     1. Obtain approvals for the Replacement Evaporator's
Project Plan and Baseline Change Proposals within the
requirements of DOE Order 4700.1,

     2. Establish procedures to ensure that Functional Design
Criteria will be developed in accordance with the
requirements of DOE Order 4700.1 for future Site
projects;

     3. Evaluate alternative contracting methods for acquiring
architect/engineering services at the Site, and

     4. Ensure, to the extent possible, that turnover associated
with key project personnel is kept to a minimum for all
major projects at the Site.


MANAGEMENT REACTION

     Management concurred with the recommendations and is taking
action to resolve the issues addressed in the report. Changes
to project management processes are also being implemented,
which will effectively eliminate the source of the problems.
Management acknowledges that significant schedule delays and
costs increases could be avoided by adequately planning,
contracting, funding, and maintaining management continuity on
Site projects. Also, management noted that there must be a
clear understanding of the responsibilities, accountability, and
authority assigned to both the Department and operating
contractor project managers and that it is the Department's
intent to have certified project managers assigned to Site
projects based on education and experience. See Part III for
detailed management and auditor comments.
                                           Signed
                                      Office of Inspector General



                             PART I

                          INTRODUCTION


BACKGROUND

     The Savannah River Site (Site), owned by the Department of
Energy (Department) and managed by Westinghouse Savannah River
Company (Westinghouse), is located near Aiken, South Carolina.
For over 40 years, the Site used five nuclear reactors to
fulfill its primary mission of producing tritium and other
radioisotopes for use in defense-related activities. In August
1988, the Site's last three operating reactors were shut down
for maintenance, modernization, and management improvement.

     Since the end of the "Cold War" and the decision by the
President to stop arms production, the Site's primary mission
changed from producing nuclear materials to environmental
restoration and waste management. A major focus of the new
mission is the storage, treatment, stabilization, and disposal
of the over 33 million gallons of high level radioactive waste
stored at the Site. The Site also expects to accept and process
spent fuel rods from various sources. To accomplish this
mission, the Site devised the High Level Waste System (System).

     When operational, the System will process radioactive waste
in six distinct batches. The waste is removed from designated
storage tanks within the Site's tank farms and liquefied with
high volumes of water and solvent. This processing will add
approximately 5D6 million gallons of liquid per year to the
System. Currently, the System has the evaporator and tank farm
capacity to accommodate the first batch of radioactive waste,
which is scheduled to begin processing in March 1996. However,
when the second batch of radioactive waste is processed, now
scheduled to begin in 2004, the System will need additional
evaporator capacity--the Replacement High Level Waste
Evaporator--to accommodate the volume of water and solvent added
during processing. The Site will need the Replacement
Evaporator until its remaining radioactive wastes are processed
by the System; projected for the year 2020.

     The Replacement Evaporator is one of three major
evaporation systems used to reduce the volume within the System.
All three are needed for the System to operate efficiently. The
Replacement Evaporator is responsible for 42 percent of the
System's evaporation capacity. Without the Replacement
Evaporator, the System will become overloaded and will have to
be shut down.

     Containment limitations of several storage tanks also have
a significant impact on the processing of the high level waste.
During processing, the liquefied waste is stored in and moved
through the various underground tanks in the tank farms at the
Site. However, 24 of the Site's high level waste storage tanks
must eventually be removed from service because they do not meet
secondary containment requirements of the Federal Facilities
Agreement executed by the Department, the Environmental
Protection Agency, and the South Carolina Department of Health
and Environmental Control. This reduction in tank farm capacity
will reduce the handling capacity of the entire System. With
reduced capacity, the need to remove excess liquid from the
waste stream will be even more critical.

     Since 1989, the Replacement Evaporator (a "Fast-Track"
project) has experienced significant schedule delays and cost
increases. The project's original completion date was December
1993; however, it is now scheduled to be completed in May 2001.
Also, the total estimated cost (construction cost) for the
project has increased 168 percent from an original estimate of
$44 million to its current estimate of $118 million. Although
the Replacement Evaporator is only 40 percent complete, the
Department has already spent more than was originally estimated
to complete the project. For a chronology of key events
associated with the Replacement Evaporator see appendix A. For
a glossary of terms, see appendix B.


OBJECTIVE

     The objective of the audit was to determine whether the
schedule delays and cost increases associated with the
Replacement Evaporator were avoidable.


SCOPE AND METHODOLOGY

     The audit was performed from May 1994 through February 1995
at the Site near Aiken, South Carolina. Our audit was limited
to the schedule and cost of the Replacement Evaporator and did
not include any other projects within the Site's System.

     To accomplish the audit objective, we:

     o    Reviewed applicable Departmental regulations and site
procedures concerning project management;

     o    Reviewed current and proposed budget information
concerning the Site's System;

     o    Interviewed Savannah River Operations Office and
Westinghouse project managers assigned to the
Replacement Evaporator;

     o    Reviewed contracts for architect/engineering services
provided to the Replacement Evaporator;

     o      Reviewed the history, original justification, and
original cost for the Replacement Evaporator; and

     o    Reviewed and analyzed changes to the scope of the
Replacement Evaporator.

     The audit was conducted in accordance with generally
accepted Government auditing standards for performance audits,
and it included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the
objective of the audit. Because our review was limited, it
would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We
placed no reliance on computer-generated data during this audit
and, thus, did not test the reliability of any computer
generated data.

     We held an exit conference with the Assistant Manager for
High Level Waste at the Site and members of his staff on May 5,
1995 to discuss the findings and recommendations presented in
this report. For management's comments on the report refer to
pages 14 through 16.

                             PART II

                   FINDING AND RECOMMENDATIONS


      Schedule Delays and Cost Increases on the Replacement
                   High Level Waste Evaporator

     The Department should accomplish projects on schedule and
within cost estimates while meeting programmatic needs.
However, the Replacement Evaporator has incurred significant
schedule delays and cost increases. Originally, the Replacement
Evaporator was scheduled to be completed in December 1993 at a
cost of $44 million; however, it is currently estimated to be
completed in May 2001 at a cost of $118 million. Many of the
schedule delays and cost increases could have been avoided had
the Department, including Savannah River, adequately planned,
contracted, funded and maintained management continuity on the
Replacement Evaporator. If the Replacement Evaporator continues
to incur schedule delays and cost increases, the capacity of the
System may be jeopardized, which could preclude the Site from
accomplishing its mission.


RECOMMENDATIONS

     We recommend that the Manager, Savannah River Operations
Office:

     1. Obtain approvals for the Replacement Evaporator's
Project Plan and Baseline Change Proposals within the
requirements of DOE Order 4700.1;

     2. Establish procedures to ensure that Functional Design
Criteria will be developed in accordance with the
requirements of DOE Order 4700.1 for future Site
projects;

     3. Evaluate alternative contracting methods for acquiring
architect/engineering services at the Site, and

     4. Ensure, to the extent possible, that turnover associated
with key project personnel is kept to a minimum for all
major projects at the Site.
                       DETAILS OF FINDING


DEPARTMENT RESPONSIBILITY FOR PROJECT COMPLETION

     One of the Department's goals when executing a
multi-million dollar project, such as the Replacement
Evaporator, is to ensure that the project is successfully
completed within the authorized schedule and funding limitations
while satisfying the Department's programmatic needs.
Specifically, the Department is responsible for ensuring that
its projects are accomplished on schedule and within cost
estimates.

     Meeting this goal is especially critical on the Replacement
Evaporator. The Replacement Evaporator is essential to the
Site's ability to efficiently process high level waste. Further
delays in completing the Replacement Evaporator could require
the Site's multi-billion dollar system to be shut down; thereby,
jeopardizing the Site's mission of storing, treating,
stabilizing, and disposing of the over 33 million gallons of
waste materials at the Site. Without the Replacement
Evaporator, the Site's tank farms will not have the capacity to
accommodate the radioactive wastes processed by the Site's
System.


PROJECT DELAYS AND COST INCREASES

     The Department has not achieved its goal of meeting
schedule and cost estimates with respect to the Replacement
Evaporator. The Replacement Evaporator has incurred numerous
schedule delays and cost increases which have extended the
project's scheduled completion date from December 1993 to May
2001 and increased the projects total estimated cost from
$44 million to $118 million.

     Some schedule delays and cost increases on the project were
outside the control of Savannah River. For example, with the
Department's budget being reduced over the next several years,
Savannah River expected a reduction in funding for the System
below previously approved levels. Consequently, Savannah River
was uncertain whether to allocate funds to the Replacement
Evaporator for Fiscal Years 1995, 1996 and 1997. In August
1994, the Westinghouse project manager on the Replacement
Evaporator was directed by the Savannah River Operations Office
to start suspension activities on the project; however, a month
later Savannah River decided to fund the project in Fiscal Year
1995. This action cost the Department approximately $700,000 to
demobilize and remobilize during August and September. The
latest revision of the High Level Waste System Plan, which
includes the effects of the expected budget cuts, has extended
the completion date of the Replacement Evaporator an additional
42 months to May 2001 and increased the total estimated cost to
$118 million.

     However, 11 of the 89 months of schedule delays and
$15.4 million of the $74 million in cost increases could have
been avoided. Specifically, improved project planning could
have saved 2 months of delays and $900,000 of cost increases,
and changing contracting procedures could have saved 9 months of
delays and $14.5 million of cost increases. Additionally, an
undetermined portion of the 89 months in delays and $74 million
in cost increases could have been avoided by improving funding
procedures and maintaining management continuity on the
Replacement Evaporator.


PROJECT MANAGEMENT

     The Replacement Evaporator incurred avoidable schedule
delays and cost increases because the Department did not follow
good management practices. Specifically, the Department could
have improved management practices with respect to planning,
contracting, funding, and maintaining management continuity on
the Replacement Evaporator.


Planning

     If Savannah River had followed the requirements of DOE
Order 4700.1 with respect to Functional Design Criteria it could
have eliminated continuing questions about the design, cost, and
schedule of the project and thereby avoided unproductive design
assessments.

     According to DOE Order 4700.1, the initial purpose of
establishing Conceptual Design Criteria is to support the
Conceptual Design effort prior to getting approval for the
project. As part of Conceptual Design Criteria, Functional
Design Criteria is the basic documentation for a project that
develops the scope of the project, the reliability of cost
estimates and schedules, the performance levels, and the project
criteria and design parameters. However, the Replacement
Evaporator did not establish Functional Design Criteria until
later in the design process. Instead of Functional Design
Criteria, the Replacement Evaporator used a Basic Data Report as
its basic documentation. This document did not present a firm
set of design requirements against which the project could be
designed. Consequently, the scope of the project evolved during
the early stages of project design.

     As a result of not having established Functional Design
Criteria, two unnecessary design assessments were performed.   In
December of 1990, a newly assigned Savannah River project
manager requested an independent design assessment of the
Replacement Evaporator despite the fact the Replacement
Evaporator employed no new technology. Essentially, the
Replacement Evaporator is a larger version of the existing
evaporators that have been utilized successfully at the Site for
over 30 years. At the conclusion of this design assessment,
Savannah River, at the request of Westinghouse, commissioned a
second design assessment. This subsequent assessment was to
validate the initial assessment's findings. However, the
subsequent design assessment, completed in February 1992,
determined that the initial findings were not supportable and
advocated the use of the original design. These unproductive
assessments delayed the project by 2 months and cost $900,000.


Contracting

     Schedule delays and cost increases on the Replacement
Evaporator could have been reduced if an alternative contracting
method had been used to procure architect/engineering services.
The contract for architect/engineering services issued at
Savannah River was a site-wide contract. This type of
contracting did not allow existing architect/engineering
contractors to remain on projects that were in critical design
phases. Under the site-wide contract, if the
architect/engineering contractor was changed, design services
for all projects had to be suspended, regardless of the
consequences.

     If Savannah River had followed a different contracting
philosophy when acquiring architect/engineering services, design
work on the Replacement Evaporator would not have been
significantly delayed. In August 1991, the Site changed
architect/engineering contractors. In preparation for the
change, design work on the Replacement Evaporator scheduled to
be performed by the departing architect/engineer contractor was
suspended to allow them time to prepare transition packages
documenting the current status and future plans for each segment
of the project. Design work was further delayed while the new
architect/engineering contractor's personnel were moved,
trained, and familiarized with Site architect/engineering
activities. This delay in the completion of the design of the
Replacement Evaporator extended the schedule by 9 months and
increased the cost by $14.5 million.


Funding

     Savannah River could have reduced the uncertainty about
current and future funding levels for the Replacement Evaporator
if it had followed the requirements contained in DOE Order
4700.1 concerning project plans and baseline management.
Reducing the uncertainty would have improved the consistency in
procurement and construction scheduling, and minimized the
changes in direction given to the management and operating
contractor.
     Even though DOE Order 4700.1 required the project to have
an approved project plan, the Replacement Evaporator project did
not have one. The project plan is a formal agreement between
Department Headquarters and an Operations Office about the
execution of a project. It establishes the scope of the
project, estimated requirements for funding and technical
performance, project schedules, designation of responsibility
and authority, organizational interfaces, implementation plans,
and accountability. Without an agreement on these matters
Savannah River was uncertain about Department Headquarters'
commitment to provide sufficient, timely funding for the
Replacement Evaporator.

     DOE Order 4700.1 also assigned certain responsibilities in
regard to baseline management which Department Headquarters did
not carry out. Department Headquarters is required to approve
or disapprove "priority" Baseline Change Proposals within 10
working days after submittal. However, the Department did not
adhere to this requirement for two "priority" Baseline Change
Proposals associated with the Replacement Evaporator. Baseline
Change Proposal 076, submitted by Savannah River in January
1992, addressed 12 baseline changes including those associated
with changing architect/engineering contractors. Baseline
Change Proposal 121, submitted by Savannah River in December
1993, addressed 11 baseline changes including a request for a
significant increase in engineering support. Neither of these
Baseline Change Proposals were approved by Department
Headquarters. Instead, Baseline Change Proposal 163 was issued
in November 1994. This Baseline Change Proposal superseded
Baseline Change Proposals 076 and 121 and authorized the
project's baselines to be updated to correspond with Fiscal
Year 1995 Congressionally approved budget limits.

     The lack of an approved project plan coupled with
inadequate baseline management created significant uncertainty
on the part of Savannah River management about the Department's
commitment to timely funding for the completion of the
Replacement Evaporator. This lack of commitment to the project
is illustrated by Savannah River's inability to properly
schedule procurements and construction activities. For example,
project managers had difficulties acquiring a crane for the
Replacement Evaporator because the additional $261,000 needed to
acquire the crane was part of Baseline Change Proposal 076 which
Department Headquarters had not approved. Also, construction
activities associated with updating the Replacement Evaporator's
Process Ventilation System were hindered because Baseline Change
Proposal 076 had not been approved.

     We could not quantify the schedule delays or cost increases
resulting from the lack of an approved project plan or baseline
change proposals; however, the management team on the
Replacement Evaporator expended time and resources in an attempt
to compensate for the lack of approvals. Eight interim Baseline
Change Proposals had to be prepared to obtain contingency funds
to keep the project's schedule from slipping further due to lack
of funding. If the two "priority" Baseline Change Proposals had
been acted upon in accordance with DOE Order 4700.1, these
interim Baseline Change Proposals would not have been needed.
The undeterminable amount of resources used to prepare these
additional Baseline Change Proposals increased the cost of the
project.


Management Continuity

     Finally, if Savannah River had learned from past Department
construction management pitfalls described in DOE Order 4700.1,
it could have controlled and executed the project more
efficiently by maintaining a stable management structure.

     The "lessons learned" section of DOE Order 4700.1 points
out that past Departmental construction projects have
experienced difficulties due to the lack of sufficient
experienced management staff. Despite this warning, the
Replacement Evaporator has had six Savannah River project
managers in the last 6 years. This turnover in project
management staff assigned to the project led to loss of project
knowledge and lack of commitment to project baselines
established by previous project managers. Because DOE Order
4700.1 designates the project manager as the individual
responsible for controlling all activities within the project,
it is essential to have continuity at the project manager level.


EFFECTS OF SCHEDULE DELAYS ON THE HIGH LEVEL WASTE SYSTEM

     Because the Replacement Evaporator is behind schedule and
over budget, the Department has jeopardized the Site's ability
to accomplish its mission of storing, treating, stabilizing, and
disposing of waste materials. Once the System begins to
operate, the waste produced by the System will need the
Replacement Evaporator to assure that the Site's tank farm
operations can support the enormous volume of liquid waste
produced. The Replacement Evaporator is estimated to provide
approximately 42 percent of the System's long-term evaporation
needs. If the Replacement Evaporator continues to incur
schedule delays and cost increases, the System may have to be
shut down until the volume of waste material can be reduced.



                            PART III

                 MANAGEMENT AND AUDITOR COMMENTS


     Management concurred with the recommendations and is taking
action to resolve the issues addressed in the report. Changes
to project management processes are also being implemented which
will effectively eliminate the source of the problems.
Management acknowledged that significant schedule delays and
costs increases could be avoided by adequately planning,
contracting, funding, and maintaining management continuity on
Site projects.
     Audit recommendations, management's responses, and auditor
comments follow:

     Recommendation 1: Obtain approvals for the Replacement
Evaporator's Project Plan and Baseline Change Proposals within
the requirements of DOE Order 4700.1.

     Management Comments. Concur

     Management stated that changes to project management
processes are being implemented which will effectively eliminate
this problem, and until these changes are implemented, the
necessary approvals are being pursued. Savannah River personnel
have participated on a Department Headquarters sponsored Process
Improvement Team which made recommendations regarding changes to
DOE Order 4700.1, and it is expected that the order will be
replaced in the near future by a less prescriptive document that
pushes the project decision making down to lower levels and
increases the Project Manager's authority and influence. In the
future, Project Plans and Project Management Plans will be
replaced by a single document called a Project Execution Plan
which, for a project the size of the Replacement Evaporator,
would not require Department Headquarters approval.
Additionally, the approval thresholds for the Baseline Change
Proposals will be changed to decentralize the decision making
process regarding baseline documentation. Also, in-scope and
out-of-scope changes will be more rigorously reviewed to further
control costs.




     Auditor Comments. Management's comments are responsive to
the recommendation. The intent of the recommendation will be
met when the Department revises DOE Order 4700.1 with respect to
the approval process for the Project Plan and Baseline Change
Proposals.


     Recommendation 2: Establish procedures to ensure that
Functional Design Criteria will be developed in accordance with
the requirements of DOE Order 4700.1 for future Site projects.

     Management Comments.   Concur

     Management stated that current Site procedures for new
projects require Functional Design Criteria to be prepared and
approved prior to authorization of the project; therefore, this
recommendation has already been implemented. However,
management also stated that the requirement of this document is
only a small portion of what is considered the biggest cause of
the project cost and schedule overruns. Projects must have
better front-end definition to clearly understand and define
realistic scope, schedules, and cost baselines. Currently, new
projects are not authorized and key decisions on existing
projects are not made without a clear understanding of the
overall direction of the project and the full "buy-in" and
support from programmatic customers.

     Auditor Comments: Management's comments are responsive to
the recommendation. The intent of the recommendation will be
met through adequate implementation of the new Site Procedures
related to Functional Design Criteria.


     Recommendation 3: Evaluate alternative contracting methods
for acquiring Architect/Engineering services at the Site.

     Management Comments.   Concur

     Management stated that this recommendation is already being
implemented. Westinghouse has been directed to implement a
different approach regarding contracting for Architecture and
Engineering services. Currently, Westinghouse employs a full
service Architect/Engineering subcontractor on a cost plus
basis. Architect/Engineering services are obtained from this
subcontractor on a non-competitive basis.
     Additionally, management stated that in the future, several
Architect/Engineering subcontracts will be awarded to qualified
firms. Required Architect/Engineering services will be packaged
as delivery orders and furnished to these firms for their
proposals, including price quotes. The delivery order will be
placed with the firm with the best proposal, with cost and
schedule being major factors in the decision. The delivery
order will be awarded on a fixed price basis. This competitive
atmosphere should result in significant savings. In cases like
the Replacement Evaporator where design will be expected to last
for several years, stand alone fixed price design contracts will
be the preferred approach. This approach to design, coupled
with the thorough understanding of the technical scope of the
project, would have resulted in significant savings to the
Replacement Evaporator had it been implemented at the initiation
of the project.

     Auditor Comments. Management's new approach for the
acquisition of Architect/Engineering services are responsive to
the recommendation.


     Recommendation 4: Ensure, to the extent possible, that
turnover associated with key project personnel is kept to a
minimum for all major projects at the Site.

     Management Comments.   Concur

     Management stated that this recommendation is being
implemented to the extent possible for all projects at the Site.
With the current reductions in the Site population and the
ensuing restructuring that will take place as a result,
maintaining project team continuity is not always possible.
However, Savannah River will make every effort to maintain team
continuity and minimize turnover of key personnel for current
and future Site projects. To illustrate, the major portion of
the project team at the Replacement Evaporator has been
maintained and co-located for more than a year. The payoff is
realized in baseline "ownership" and continuity in project
knowledge.

     Auditor Comments. Management comments are responsive to
the recommendation and we believe the Department will, to the
extent possible, maintain management continuity for current and
future major projects at the Site.

                                                         Appendix A
                                                         Page #=1 of 2
                    Chronology of Key Events


February, 1987        Initiate Replacement Evaporator and issue
the conceptual design report.

April, 1989           Change in management & operating
contractors at the Savannah River Site
from Du Pont to Westinghouse.

May, 1989             Start of Title I Design.

September, 1989       Start of Title II Design.

March, 1990           Start of construction activities.

April, 1990           Submitted Change Request #1 to Department.

October, 1990         Change Request #1 approved by Department
Headquarters.

December, 1990        Department notified Westinghouse of an
independent design assessment.

August, 1991          A new contract for architect/engineering
services at the Site was awarded to Ebasco
Inc.

October, 1991         Ebasco Inc. assumed Site responsibilities
for architect/engineering services.

January, 1992         Change Request 076 submitted to Department
Headquarters to increase total estimated
costs to $93.2 million and extend schedule
to September 1994.

February, 1992        Independent Design Review completed.

December, 1993        Baseline Change Proposal 121 sent to
Department Headquarters requesting
$24.9 million increase in total estimated
costs and schedule extension to November
1997.

                               #=17
January, 1994         High Level Waste System Plan D revision 2
issued with an estimated completion date
for the Replacement Evaporator of November
1997.

August, 1994          Replacement Evaporator put on hold due to
Departmental Fiscal Year 1995 budget cuts.

October, 1994         Memo sent to Department Headquarters
describing additional resources needed for
the Fiscal Year 1995 Savannah River Site
budget to fund high level waste activities
including the Replacement Evaporator.

October, 1994         High Level Waste System Plan D draft
revision 4 issued. This draft depicted
significant budget cuts to the Replacement
Evaporator in Fiscal Year 1995, 1996, and
1997 and extended the completion date for
the Replacement Evaporator to May 2001.

                                                       Appendix B
                                                       Page #=1 of 2
                        Glossary of Terms


1.   Replacement High Level Waste Evaporator

     A facility whose purpose is to evaporate water from the
high level waste streams. This evaporation process will
maximize the space in the Site's tank farms and allow the
Site's high level waste system to operate as designed.

2.   Total Estimated Costs

     Costs associated with engineering design (after conceptual
design), facility construction and other costs specifically
related to those construction efforts. These costs are
typically capitalized and subject to specific Congressional
authorization.

3.   Conceptual Design Criteria

     Conceptual Design encompasses those efforts to develop
project scope, assure project feasibility, assure
attainable performance levels, develop reliable cost
estimates and realistic schedules, and develop project
criteria and design parameters.

4.   Functional Design Criteria

     As part of Conceptual Design Criteria, Functional Design
Criteria provides the technical criteria and design
requirements necessary to develop the projects design (from
conceptual design to detailed design). The Functional
Design Criteria also provides the evaluation and
justification for any design alternatives.

5.   Baseline Change Proposal

     The instrument/document prepared to provide a complete
description of a proposed change and its resulting impacts
on project baselines. These documents are the
justifications for additional funding and scope changes
needed on a project.

                                #=19



6.   High Level Waste System Plan

     The plan that describes the current operational strategy
for the management of the Site's High Level Waste System.
It describes operational constraints, planning bases,
issues, assumptions, integrated schedules, contingency
analysis and other pertinent information as it relates to
the Site's High Level Waste facilities and operations.

7.   "Fast-Track" Project

     A "Fast-Track" project is a project in which project
construction and project design are done concurrently
throughout the life of the project.

                                           IG Report No. ER-B-95-04

                  CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our reports
as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of
this form, you may suggest improvements to enhance the effectiveness of
future reports. Please include answers to the following questions if
they are applicable to you:

     1.   What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

     2.   What additional information related to findings and recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have
taken on the issues discussed in this report which would have been
helpful?

     Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

     Name                                        Date

     Telephone                                   Organization

     When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586D0948, or you may mail it to:

            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member
of the Office of Inspector General, please contact Wilma Slaughter at
(202) 586D1924.
